                                Office of Inspector General
                               Corporation for National and
                                        Community Service




       AGREED-UPON   PROCEDURES OF
        CORPORATION  FOR NATIONAL
      AND COMMUNITY  SERVICE GRANTS
    AWARDED TO THE VVYOMING COMMISSION
    FOR NATIONALAND COMMUNITY  SERVICE

            OIG REPORT    05-18
                     NUMBER


                                               Corporation for              ~r




                                               COMMUNITY
                                               SERVICE-




                        Prepared by:

                COTTON & COMPANY LLP
                635 Slaters Lane, 4th Floor
                 Alexandria, Virginia 22314




This report was issued to Corporation management on September 2, 2005.
Under the laws and regulations governing audit follow-up, the Corporation is to
make final management decisions on the report's findings and
recommendations no later than March 2, 2006, and complete its corrective
actions by September 2, 2006. Consequently, the reported findings do not
necessarily represent the final resolution of the issues presented.
                               Office of Inspector General
             Agreed-Upon Procedures of Corporation for National and Community
                              Service Grants Awarded to the
                 Wyoming Commission for National and Community Service

OIG Summary
The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), retained Cotton & Company LLP (Cotton) to perform agreed-upon procedures of
Corporation National Direct Grants awarded to the Wyoming Commission for National and
Community Service (Commission).
For the grants in Program Years 2001-2002,2002-2003 and 2003-2004, the Commission claimed
costs of $638,162, of which the auditors questioned $216,868 as unallowable and unsupported
costs, and $14,478 of education awards. Overall, the auditors questioned approximately 34
percent of claimed costs.

Costs questioned for allowability represent amounts for which documentation shows that
recorded costs were expended in violation of regulations or specific grant award conditions, or
costs that require an interpretation of allowability by the Corporation. The auditors also noted
instances of noncompliance with provisions of Federal laws, regulations and grant award
provisions.
The Commission was dissolved in 2004 and replaced by a non-profit organization. Although
former Commission officials disagreed with the auditor's questioned match costs for public
service announcements, it generally agreed with the remaining auditors' conclusions. The State
has also launched an internal audit into the Northern Arapahoe Housing Development
Organization and is attempting to collect documentation for the $128,252 in costs questioned for
lack of support. These comments and any additional supporting documentation will be reviewed
by the Corporation as part of the audit resolution process.
In accordance with our statutory responsibilities, we reviewed Cotton's report and related
documentation, interviewed their representatives, and performed other procedures as we deemed
appropriate in the circumstances to provide reasonable assurance that the agreed-upon
procedures were performed in accordance with generally accepted government auditing
standards. Our review was not intended to enable us to express, and we do not express, opinions
on the Commission's Consolidated Schedule of Award Costs, internal controls or conclusions on
compliance with laws and regulations. Cotton is responsible for the attached reports dated
January 4, 2005, and the conclusions expressed therein. However, our review disclosed no
instances where Cotton did not comply, in all material respects, with generally accepted
government auditing standards.

The Office of Inspector General provided Wyoming State officials and the Corporation with a
draft of this report for their review and comment. Their responses are included as Appendices A
and B, respectively.
                  OFFICE OF INSPECTOR GENERAL
        CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
    AGREED-UPON PROCEDURES TESTING OF GRANTS AWARDED TO THE
    WYOMING COMMISSION FOR NATIONAL AND COMMUNITY SERVICE


                                        Contents

Agreed-Upon Procedures Scope                                         1

Background                                                           2

Summary of Results

Independent Accountants' Report on Applying Agreed-Upon Procedures   5

Exhibit A: Consolidated Schedule of Award Costs

Schedule A: Schedule of Award Costs for Award No. 01SCSWYO5O

Schedule B: Schedule of Award Costs for Award No. 02PDSWY050

Schedule C: Schedule of Award Costs for Award No. 00ASFWY052

Schedule D: Schedule of Award Costs for Award No. 03AFHWY001         14

Appendices

A: Commission's Response to Draft Audit Report
B: Corporation's Response to Draft Audit Report
                         AGREED-UPON PROCEDURES SCOPE

Cotton & Company LLP was contracted by the Office of Inspector General (OIG), Corporation
for National and Community Service (Corporation) to perform agreed-upon procedures on the
costs claimed by the Wyoming Commission (Commission) and its subgrantees for the period
fiom January 1,2001, through September 30,2004. The agreed-upon procedures covered
financial transaction, compliance, and internal control testing of the following program awards
funded by the Corporation:
-




Program                          Award No.             Award Period            Testing Period
Administrative                 01SCSWYO50            01/01/01-06/01/04       01/01/01-06/30/04
Disability Funds               01DSCWY050            01/01/01 - 12/31/03     01/01/01 - 12/31/03
Program Development and
Training (PDAT)                02PDSWY050            01/01/02-12/31/04       01/01/02-06/30/04
AmeriCorps                     00ASFWY052            0910 1/00 - 09/30/03    07101101 - 09/30/03
AmeriCorps                     03AFHWY001            10/01/03 - 09/30/06     10/01/03 - 09/30/04

The agreed-upon procedures specifically included:

               Reviewing documents to understand how the Commission spent grant funds. This
               included gathering complete information for each subgrantee on subgrants
               awarded and costs actually incurred.

               Testing claimed Commission costs to ensure:

               1.     Proper recording among the Administrative, PDAT and Disability grants;
               ..
               11.    Costs were properly matched; and
               iii.   Costs were allowable and properly supported in accordance with OMB
                      Circular A-87, Cost Principles for State, Local, and Indian Tribal
                      Governments, other applicable OMB circulars, and award terms and
                      conditions.

               Reconciling Commission financial reporting of subgrantee grants and
               expenditures to its financial system records.

               Testing subgrantee member files to verify that the records supported the eligibility
               and allowability of living allowances and education awards.

               Testing claimed subgrantee costs for allowability in accordance with applicable
               Office of Management and Budget (OMB) circulars, as well as proper matching
               for cost share.

       0       Reconciling subgrantee claimed costs to financial system records.
                                        BACKGROUND

The Commission, a State of Wyoming agency, received Corporation funds to provide and
support national and community service programs from 1995 to 2004. It had approximately 37
AmeriCorps members in Program Year (PY) 2003 and 14 in PY 2004, all of whom were part-
time members. The fiscal agent of the Commission was initially the State Department of Health.
In 2002, this operation was transferred to the State Department of Workforce Services (SDWS).
According to the Administrator of SDWS, the agency had difficulty establishing a Federal cash
draw down account with the U.S. Department of Health and Human Services, Payment
Management System.

The Wyoming Commission did not directly administer any AmeriCorps programs. AmeriCorps
funding flowed through the Commission to its subgrantees. The Commission did, however,
directly incur expenses for the Administrative and PDAT grants.

In 2004, a non-profit organization, Serve Wyoming, Inc. was established to replace the
Commission. The Commission did not renew any of its Corporation grants after Program Year
(PY) 2003 - 2004, and it has ceased operations. The non-profit organization received a new set
of PY 2004 grants from the Corporation and hired a completely new staff.

The Corporation administers education awards through a database of all members that is updated
by each State commission and reported to the Corporation's National Service Trust (Trust).
Members then submit requests to the Trust to redeem their awards, which are paid by the
Corporation directly to higher educational institutions or holders of members' education loans.

The OIG performed a pre-audit survey of the Commission's systems and procedures, issuing
Office of Inspector General Report No. 00-35 on May 16,2000. Our agreed-upon procedures
did not include a determination of the status of the recommendations made in that report because
the Wyoming Commission is no longer operational.


                                  SUMMARY OF RESULTS

Costs Claimed

The Commission claimed total costs of $638,162 on its Corporation grants from January 1, 2001,
through September 30,2004. Of this amount, we questioned $49,633 for allowability and
$167,235 for support. Costs questioned for allowability are costs for which there is
documentation that the recorded costs were expended in violation of the law, regulations, or
specific conditions of the award, or those costs that require interpretation of allowability by the
Corporation. Costs questioned for support require additional documentation to support that the
costs were incurred and were allowable.
Costs were questioned for the following reasons:

            Questioned for Allowability                                  Costs
            Costs Outside the Grant Budget                              $ 2,757
            Grantee did not Fulfill Program Requirements                  9,930
            Errors in Preparing Financial Status Reports                (12,439)
            Costs Incurred on a Previous Grant                            3,596
            Cost of a Canceled Airline Flight                               486
            Cost Matching Shortfall                                      45,303
            Total                                                       $49.633



            Questioned for Support                                      Costs
            Inadequate Supporting Documentation                        $167.235

AmeriCorps members who successfully complete terms of service are eligible for education
awards from the National Service Trust. These award amounts are not funded by Corporation
grants and thus are not included in claimed costs. As part of our agreed-upon procedures,
however, we determined the effect of accountants' findings on education award eligibility.
Using the same criteria described above, we questioned education awards of $14,478 for support.

Details related to these costs and awards appear in the Accountants' Agreed-Upon Procedures
Report. Exceptions are summarized by award as follows.

                                        Costs          Costs
                                     Questioned      Questioned     Education
                       Costs             for            for          Awards
Grant No.             Claimed        Allowability     Support       Questioned      Schedule
0 1SCSWYO50           $147,579        $49,385         $ 17,648                         A
02PDSWY050              50,46 1       (12,439)             264                         B
01DSCWY050               5,724          -                  --                         -
00ASFWY052             289,754            2,757         21,071        $ 5,028          C
03AFHWYOO1             144,644            9,930        128,252          9,450          D
Total                 $638.162        $49.633         $167.235        $14.478         -
Compliance and Internal Controls

Our agreed-upon procedures also disclosed the following:

              Commission and subgrantee time records did not comply with the applicable
              Office of Management and Budget (OMB) circular requirements.

              Subgrantee member files did not contain all documentation on member
              enrollment and service required by the AmeriCorps grant provisions.

              The Commission's financial management system did not adequately identify costs
              by grant.

              The Commission and its subgrantee did not comply with the record retention
              requirements of the grants.

These matters are discussed in detail in the Independent Accountants' Report on Applying
Agreed-Upon Procedures.

Exit Conference

Cotton & Company held an exit conference with State Officials and Corporation representatives
on May 12,2005. The Commission, which did not renew any of its Corporation grants after
Program Year (PY) 2003 - 2004, has ceased operations and, accordingly, this report includes
only one recommendation to the Corporation for corrective action.

We provided a draft copy of this report to the State and the Corporation for comment. The State
provided specific comments on the cost findings (Appendix A). The Corporation stated that it
will respond to all findings and recommendations when the audit report is issued (Appendix B).
                                               auditors advisors
  333 NORTH FAIRFAXS~RFET   Sum. 401 A I ~ R I A VIRGINIA
                                                 ,       22314   703/836/6701   FAX 703/836/0941    WWWCOTTONBA.COM




                                                 January 4,2005


 Inspector General
 Corporation for National and Community Service


                            INDEPENDENT ACCOUNTANTS' REPORT ON
                              APPLYING AGREED-UPON PROCEDURES

 We have performed the procedures described below, which were agreed to by the Office of
 Inspector General (OIG), Corporation for National and Community Service, solely to assist the
 OIG in evaluating the costs claimed by the Wyoming Commission for National and Community
 Service (Commission) for the awards listed below. This agreed-upon procedures engagement
 was performed in accordance with attestation standards established by the American Institute of
 Certified Public Accountants and standards applicable to attestation engagements contained in
 generally accepted government auditing standards. The sufficiency of these procedures is solely
 the responsibility of the Office of Inspector General. Consequently, we make no representation
 regarding the sufficiency of the procedures described below, either for the purpose for which this
 report has been requested or any other purpose.

Program                                   Award No.                Award Period                      Audit Period*
Administrative                         01SCSWYO50                01/01/01-06/01/04                 01/01/01-06/30/04
Disability Funds                       0 1DSCWY050               01/01/01 - 12/31/03               01/01/01 - 12/31/03
Program Development
Assistance Training (PDAT)             02PDSWY050                0 1101102 - 06130104              0 1101102 - 06130104
AmeriCorps                             00ASFWY052                09/01/00 - 09/30/03               07/01/01 - 09/30/03
AmeriCorps                             03AFHWY001                1010 1103 - 09/30/06              1010 1103 - 09/30/04

 *     The end of our testing period is the earlier of the date of grant expiration, or the date of the
       last Financial Status Report (FSR) submitted by the Commission as of September 30,2004.


 The procedures that we performed and the results of these procedures are included.

  1.       Reviewing documents to understand how the Commission spent grant funds and
           gathering complete information for each subgrantee on subgrants awarded and costs
           incurred.

 2.        Testing claimed Commission costs to ensure:
              Proper recording among the Administrative, PDAT and Disability grants;
              Costs were properly matched; and
       .      Costs were allowable and properly supported in accordance with OMB Circular
              A-87, Cost Principles for State, Local and Indian Tribal Governments, other
              applicable OMB circulars, and award terms and conditions.

3.     Reconciling Commission financial reporting of subgrantee grants and expenditures to its
       financial system records.

4.     Testing subgrantee member files to verify that the records support the eligibility and
       allowability of members' living allowances and education awards.

5.     Testing claimed subgrantee costs for allowability in accordance with applicable Office of
       Management and Budget (OMB) circulars, as well as proper matching for cost share.

6.     Reconciling subgrantee claimed costs to financial system records.


                                           RESULTS
The testing results are summarized below and in the Consolidated Schedule of Award Costs and
the grant-specific Schedules of Award Costs. These schedules also identify certain questioned
education awards. These awards are not funded by the Corporation grants, and so are not
included in claimed costs. As part of our agreed-upon procedures, however, we determined the
effect of all member eligibility issues on these awards.

Compliance and Internal Control over Financial Reporting

In addition to the cost and award results described in the Consolidated Schedule of Award Costs
and the grant-specific Schedules of Award Costs, results of our tests disclosed instances of
noncompliance and deficiencies in internal controls over financial reporting as follows.

1.     Commission and subgrantee time records did not comply with applicable OMB
       requirements.

       a)     The Commission program director did not prepare semiannual certifications or
              time sheets to document her time spent on Grant No. OlSCSWYOSO after July 1,
              2002. At that time, fiscal responsibility for the Commission was transferred from
              the Wyoming State Department of Health (SDH) to the Wyoming State
              Department of Workforce Services (SDWS). The program director's entire salary
              was charged to the grant, and SDWS did not require that she certify her time.
              OMB Circular A-87, Attachment B paragraph 8(h), Support of Salaries and
              Wages, requires that employees working solely on a single Federal award prepare
              time certifications, at least semiannually, and that these be signed by the
              employee or the employee's supervisor.
     b)     Big Brothers Big Sisters of Southeast Wyoming, Inc. (BBBS) employees did not
            prepare time sheets that identified hours worked by activity. BBBS employees
            recorded all hours worked, but not the programs worked on. In addition, the time
            sheets were not always signed by the employee andlor the employee's supervisor.
            OMB Circular A- 122, Cost Principles for Nonprofit Organizations, Attachment
            B, paragraph 8(m) Support of Salaries and Wages, requires that reports reflecting
            the distribution of activity of each employee be maintained for all staff members
            whose labor costs are charged to Federal awards, and that the reports be signed by
            the employee or the employee's supervisor. Failure to obtain employee time
            records certifying time worked, by activity, could result in inaccurate labor cost
            reporting.

2.   BBBS member records did not comply in all respects with ArneriCorps grant conditions.
     We tested five member files for PY 2001 - 2002 and five member files for PY 2002 -
     2003. We noted the following:

     a)     Eight files contained member time sheets with changes that were not initialed by
            the members' supervisor, and five files did not contain original time sheets.
            BBBS' practice was to fax time sheets from member service sites to the
            supervisor for review and approval. AmeriCorps Provisions Section C (21) (c),
            Time and Attendance Records, requires that subgrantees keep time and attendance
            records on all AmeriCorps members to document their eligibility for in-service
            and post-service benefits. Section C (21) (b), Source Documentation, requires
            that the grantee maintain adequate supporting source documents for grant
            expenditures.

     b)     Nine member files did not contain a mid-term evaluation, and one file did not
            contain a final evaluation. BBBS did not have a policy requiring mid-term
            evaluations. Instead, supervisors evaluated members' mentoring progress with
            monthly telephone calls. AmeriCorps Provisions Section B (7) (g), Performance
            Reviews, require that the grantee conduct at least a mid-term and end-of-term
            written evaluation of each member's performance. These evaluations are
            necessary to document the member's eligibility for a second term of service
            andlor education awards.

     c)     One member's enrollment form was not signed by the program director.
            AmeriCorps Provisions Section B ( 6 ) (a), Eligibility to Enroll, states that the
            grantee may only select members who are eligible to enroll in AmeriCorps. The
            program director's signature on the enrollment form is the subgrantee's
            certification that the member meets the eligibility requirements. Without this
            signature, the subgrantee cannot demonstrate that it has fulfilled its responsibility
            under the grant.

3.   The Commission's financial management system did not clearly identify and segregate
     expenditures by grant. It used the same budget code to identifl the costs of both the
       current and a prior administrative grant (No. OlSCSWYO50 and No. 94SCSWY050
       respectively). Provisions for PDAT, Disability Placement and State Administrative
       Awards Section B (4) (a), Financial Management Provisions, requires that "[flinancial
       management systems must be capable of distinguishing expenditures attributable to this
       grant from expenditures not attributable to this grant." The Commission erroneously
       claimed $3,596 of Administrative Grant No. 94SCSWY050 costs under its current grant.
       We questioned these costs for allowability (see Schedule A).

4.     The Commission and its subgrantee did not retain supporting documentation to support
       all grant expenditures. The Commission was not able to provide documents to support
       the following:

              Four of 32 administrative grant transactions tested.
              One of 23 PDAT grant transactions tested.

       In addition, United Way of Campbell County could not find records to support costs it
       claimed under AmeriCorps Grant No. 00ASFWY052. AmeriCorps Provisions Section C
       (26) Retention of Records, requires that grantees retain and make available all financial
       records for three years from the date of the final Financial Status Report (FSR)
       submission. We questioned the claimed costs associated with these missing documents
       for lack of support (see Schedules A through D).

Recommendation

We recommend that the Corporation follow up with the State to determine if questioned and
unsupported amounts should be allowed, or disallowed and recovered.

We were not engaged to, and did not perform an examination, the objective of which would be
the expression of an opinion on the Consolidated Schedule of Award Costs. Accordingly, we do
not express such an opinion. Had we performed other procedures, other matters might have
come to our attention that would have been reported to you.

This report is intended solely for the information and use of the Office of Inspector General,
Corporation management, the Commission and its subgrantees, and the U.S. Congress and is not
intended to be and should not be used by anyone other than these specified parties. However,
this report is a matter of public record and its distribution is not limited.


COTTON & COMPANY LLP




Michael Gillespie, CPA
Partner
                                                                              EXHIBIT A




            WYOMING COMMISSION FOR NATIONAL AND COMMUNITY SERVICE
                    CONSOLIDATED SCHEDULE OF AWARD COSTS
            CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS



                                                     Costs      Costs
                                                  Questioned Questioned Education
                                 Approved Claimed     for        for     Awards
-   Award No.     Program         Budget   Costs  Allowability Support Questioned Schedule
01SCSWY050      Administrative   $2 10,022   $147,579   $49,385    $ 17,648               A
02PDSWY050      PDAT               98,974      50,461   (12,439)       264                B
01DSCWY050      Disability          17,040      5,724
00ASFWY052      AmeriCorps        373,742     289,754     2,757
03AFHWY00 1     AmeriCorps        249,350     144,644     9,930
Total                            $949.128    $638.162   $49.633    $167.235   $14.478
                                                                                     SCHEDULE A



     WYOMING COMMISSION FOR NATIONAL AND COMMUNITY SERVICE
                   SCHEDULE OF AWARD COSTS
        CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                     AWARD NO. 01SCSWY050
                 JANUARY 1,2001, TO JUNE 30,2004


          Administrative                                                          Notes
          Approved Budget (Federal funds)                           $2 10.022
          Claimed Costs                                             $147.579
          Costs Questioned for Allowability                         $ 49.385        1,3
          Costs Questioned for Support                               $ 17.648        2

1.   We questioned costs of $4,082 for allowability, as follows.

              The Commission claimed $3,596 expended prior to January 1,2001. These costs
              should have been charged to the previous administrative grant. The Commission,
              however, used the same budget code to account for expenditures of both grants and
              erroneously included these in claimed costs for this grant. We questioned these costs
              as unallowable in accordance with OMB Circular A-87, Attachment A, Section C (1)
              (b), Factors AffectingAllowability of Costs, which requires that costs be allocable to
              the grant.

     rn       The Commission could not provide support for a $486 airfare charge. Commission
              representatives informed us that the flight had been canceled, but the Commission did
              not receive a refund for the cancellation. We questioned $486 as unallowable in
              accordance with OMB Circular A-87, Attachment A, Section C (1) (a), which
              requires that costs must be necessary and reasonable.

2.   We tested 32 cost transactions representing charges of $33,920 and a credit of $(38,936), for
     supporting documentation. Of these, the Commission could not provide source documents to
     support four transactions totaling $17,648. Provisions for PDAT, Disability Placement and
     State Administrative Awards, Section B (4), Financial Management Provisions, requires that
     grantees maintain adequate supporting documents for grant expenditures. We questioned
     $17,648 for lack of support.

3.   The Commission claimed matching costs of $236,338. We noted that:
        The Commission could not provide supporting documentation for $70,536 of claimed
        costs. Provisions for PDAT, Disability Placement and State Administrative Awards
        Section B (4), Financial Management Provisions, requires that grantees maintain
        adequate supporting documents for grant expenditures.

        The Commission included Public Service Announcement (PSA) costs of $130,560 as
        matching. This is the donated media value of ArneriCorps PSAs aired by television
        stations in Wyoming during PY 2002. The PSAs were produced with Corporation
        funds, and tagged with the State Commission name by the Corporation. The
        Commission thus had little or no involvement in producing and distributing the PSAs.

        Provisions for PDAT, Disability Placement and State Administrative Awards Section
        B (8), Match Requirements for State Administrative Awards, requires that grantees
        match 50 percent of operating costs.

        In addition, OMB Circular A-87, Attachment A, Section C (1) (a), Factors for
        Determining Allowability of Costs, states that costs must '%e necessary and reasonable
        for proper and efficient performance and administration of Federal awards."

        Further, Section C (2) (a), Reasonable Costs, states that in determining the
        reasonableness of a given cost, consideration must be given to "[wlhether the cost is of
        a type generally recognized as ordinary and necessary for the operation of the
        governmental unit or the performance of the Federal award. "

        The claimed PSA costs of $130,560 were not operating costs, were not necessary for
        the Commission's operation andlor its grant performance, and should not have been
        claimed as match. We recalculated the Corporation share of total costs as follows:


                                           Corporation       Matching           Total
Costs Claimed                                $147,579         $236,338        $383,917
Less Cost Exceptions
 Unsupported Costs                             17,648            70,536         88,184
 Unallowable Costs                              4,082           130.560        134,642
Net Costs                                    $125.849          $35.242        $161.091
50 Percent of Total                            $80,546
Corporation Share Questioned for
Matching Shortfall                             $45.303
                                                                                  SCHEDULE B


     WYOMING COMMISSION FOR NATIONAL AND COMMUNITY SERVICE
                   SCHEDULE OF AWARD COSTS
        CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                     AWARD NO. 02PDSWY050
                 JANUARY 1,2002, TO JUNE 30,2004


      Program Development and Training                                           Notes

      Approved Budget (Federal funds)
      Claimed Costs
      Costs Questioned for Allowability
      Costs Questioned for Support

1.   The Commission underclaimed Federal costs on its Financial Status Report (FSR) for this
     grant. The Commission identified costs by appropriation unit (budget code) on its financial
     records. Costs incurred under this grant were charged to appropriation units 301 and H302.
     The Commission, however, erroneously excluded costs charged to appropriation unit 301
     from the FSR, resulting in underclaimed costs of $12,439. We questioned $(12,439) in
     accordance with OMB Circular A-87, Attachment A, Section C (I), Factors Affecting
     Allowability of Costs.

2.   We tested 23 cost transactions for supporting documentation. Of these, the Commission
     could not provide source documents to support one charge of $264. AmeriCorps Provisions
     Section C (21), requires that grantees maintain adequate supporting documents for grant
     expenditures. We questioned $264 for lack of support.
                                                                                              SCHEDULE C


                 WYOMING COMMISSION FOR NATIONAL AND COMMUNITY SERVICE
                               SCHEDULE OF AWARD COSTS
                    CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                      AMERICORPS
                                 AWARD NO. 00ASFWY052
                            JULY 1,2001, TO SEPTEMBER 30,2003



                                                                Costs          Costs
                                                             Questioned      Questioned Education
                                               Claimed           for            for      Award
.-                                              Costs        Allowability     Support   Questioned          Notes
     Big Brothers Big Sisters (BBBS) of
     Southeast Wyoming                        $268,683          $2,757                                          1
     United Way of Campbell County              21,071          -              $2 1,07 1      $5,028            2
     Total
     Approved Budget

                 BBBS claimed $2,757 travel and registration costs for the annual BBBS National
                 Conferences. These expenses were not included in the approved grant budget, and BBBS
                 could not provide documentation that these charges were approved for reimbursement. We
                 questioned $2,757 for allowability in accordance with OMB Circular A-122, Attachment A,
                 Section A (2), Factors Affecting Allowability of Costs, which requires that to be allowable,
                 costs must be reasonable for the performance of the award, and be allocable to the award.
                 BBBS representatives stated that the Commission's director gave BBBS oral approval to
                 claim these costs as program expenditures.

                 United Way of Campbell County could not find any records for the grant. It was thus unable
                 to support costs claimed as well as its members' eligibility for education awards. AmeriCorps
                 Provisions Section C (2 I), requires that grantees maintain adequate supporting documents for
                 grant expenditures. AmeriCorps Provisions Section C (26), Retention of Records, requires
                 that grantees must retain and make available all financial records, supporting documentation,
                 statistical records, evaluation data, member information and personnel records for 3 years
                 from the date of the submission of the final Financial Status Report.. .

                 United Way submitted its final FSR on January 1,2003. Two of its part-time members
                 received education awards totaling $5,028. We questioned $21,071 of costs claimed and
                 $5,028 of education awards for lack of support.
                                                                                         SCHEDULE D


            WYOMING COMMISSION FOR NATIONAL AND COMMUNITY SERVICE
                          SCHEDULE OF AWARD COSTS
               CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                 AMERICORPS
                            AWARD NO. 03AFHWY001
                      OCTOBER 1,2003, TO SEPTEMBER 30,2004


                                                             Costs     Costs
                                                         Questioned Questioned Education
                                            Claimed           for       for     Award
                                             Costs*      Allowability Support Questioned Notes
Northern Arapaho Housing
Development Organization (NAHDO)          $128,252                       $128,252         $9,450          1
Rehabilitation Enterprises of North
Eastern Wyoming (RENEW)                       9,930        $ 9,930                                        2
University of Wyoming                         6,462
Total                                     $144.644          $ 9.930      $128.252         $9.450
Approved Budget                           $249.3 50

  *     The University of Wyoming has notified the Commission that it does not intend to seek
        reimbursement for costs claimed of $6,462.

           NAHDO did not provide documentation to support the costs claimed. We selected a sample
           of 46 cost transactions and five member files for testing, and requested that NAHDO provide
           supporting documentation. NAHDO did not respond to our requests for this information. We
           were thus unable to verify that costs claimed were allowable and allocable. AmeriCorps
           Provisions Section C (2 1) Financial Management Provisions, requires that grantees maintain
           adequate supporting documents for grant expenditures. We questioned $128,252 for lack of
           support. As of September 30,2004, two NAHDO members had earned education awards, so
           we questioned $9,450 education awards ($4,725 x 2) for support.

  2.       RENEW was unable to recruit any members for the program. On November 17,2004,
           RENEW notified the Commission that it intended to close out its ArneriCorps program, and
           would reimburse grant funds as required. We questioned costs claimed of $9,930 in
           accordance with OMB Circular A-122, Attachment A, Section A (2), Factors Affecting
           Allowability of Costs, which requires that to be allowable, costs must be reasonable for the
           performance of the award, and be allocable to the award.
                            Appendix A


Response of the Wyoming Commission for National and Community Service
                                State of Wyoming
                        Department of Workforce Services
                                      Office of the Director
                                   122 W. 25thSt. Herschler 2E
                                      Cheyenne, WY 82002


Director Kathy Emmons                                                  Governor Dave Freudenthal



                                            August 2,2005

      Ms Carol Bates
      Acting Inspector General
      1201 New York Ave., Ste. 830
      Washington, DC 20525

      Dear Ms. Bates:

      This letter is in response to OIG Report No. 05-18. The Department of Workforce Services
      would like to thank the Auditors, Cotton & Co., and the Inspector General's Office for your
      cooperation throughout the audit.

      For purposes of background, The Department of Workforce Services (DWS) is the newest
      agency within the State of Wyoming. The Department was created in July of 2002. The
      State saw a need to consolidate workforce development functions into one agency. During
      this transition a large number of federal programs were transferred from numerous agencies
      into the Department of Workforce Services. Federal programs from the Department of
      Health, Department of Family Services, the Wyoming Community College Commission, and
      the Department of Employment totaling $59m were transferred at that time. While the
      Department of Workforce Services acknowledges possible transition inaccuracies of this
      program, please be assured that DWS is current in the management of each federal
      program.

      The Community Services Programs came into the Department of Workforce Services from
      the Department of Health. The audit period covers both the grants managed under the
      Department of Health and the Department of Workforce Services.

      Following is our response to each schedule addressed in the audit:

      Schedule A

      'The PSA match of $130,560 was approved by the CNCS Public Affairs Office and by the
       Program Officer for Americorps in November of 2C02. DWS feels they have managed the
       PSA announcements within the approvals granted at the National office. Our review of the
      Schedule A summary, therefore, leads us to believe the inclusion of the $130,560 fully
      supports the entire match requirement. The first match report included all $130,560 of costs,
       however not all of it was needed to qualify for the match, so the unneeded portion from the

          Ta13.97-777-8650       Fax 307-777-5857         www.wyomingworkforce.org
Page 2
Ms. Carol Bates
August 2,2005

prior report was used on the next cumulative match report. We feel that all the PSA match
dollars are accurate.

The Department of Health (DOH) has experienced turnover since their participation in the
grants. The DOH portion of the unsupported costs total $21,704.91. Regarding the $3,596
claimed by the Commission but expended prior to January 1, 2001, DOH will continue to
work with the Corporation to resolve the questioned claim. Regarding the $486 airfare
charge, the airline tickets were cancelled at the last minute, and no refund could be obtained
from the airline company. DOH has launched another effort to obtain the support for the
remaining $17,622.91 of unsupported costs and will work with the Corporation to resolve.

Department of Workforce Services (DWS) recognizes the $24.99 expenditure modification.
This was an adjustment to correct the reporting category within the grants, and we feel this is
below our scope of further research.

Schedule B

DOH recognizes the error in the FSR reporting and agrees with the audit finding of $12,439.
DOH will work with the Corporation to resolve.

Schedule C

The Big Brother Big Sisters (BBBS) claimed cost for reimbursement to the National BBBS
Conference, DWS views the conference as an opportunity to further improve the
volunteerism and community services of the organization. DWS will work with the
Corporation to further define our support of the conference.

Of the $21,071 United Way expenditures, $9,920.29 occurred under DWS. United Way
reported the expenditure through the WBRS system, but DWS has not reimbursed United
Way for the expenditures. Therefore, DWS will not be asking the Commission for any
reimbursement of the unsupported $9,920.29. The remaining $1 1,150.71 occurred under the
DOH, and they will continue to work with the Corporation to provide any necessary support.

We understand that the United Way education awards are disbursed from the National Trust.
We are continuing to work with United Way on providing the necessary support.

Schedule D

DWS contacted the Northern Arapahoe Housing Development Organization (NAHDO) again
in May, 2005. The NAHDO employee provided insufficient supporting documentation during
the audit. The NAHDO Financial Director, however, was not aware that the documentation
provided was insufficient. The Financial Director has launched an internal audit into the
program, is collecting the documentation needed, and will work with the Corporation to
resolve the unsupported costs.

We understand that the NAHDO education awards are disbursed from a national trust. The
NAHDO will work to resolve the questioned awards.
Page 3
Ms. Carol Bates
August 2,2005

RENEW has reported $9,930 of expenditures through the WBRS system. In November of
2004, when RENEW notified DWS of their intent to close the program they acknowledged the
potential of refunding any unallowable costs. DWS and RENEW will work with the
Corporation to resolve any outstanding issues. DWS has only reimbursed RENEW for
$6,127.56 of the $9,930 of claimed expenditures. At this time DWS has not drawn the
federal funds from the grant for this reimbursement.

The Department of Workforce Services looks forward to working with the Corporation to
resolve any and all audit related questions.

Sincerely,



Kathy Emmons
Director
Department of Workforce Services

XC:     Kim Alexander, CFO
        Department of Health
                         Appendix B


Response of the Corporation for National and Community Sewice
  To:

  From:

  Cc:           Rosie Mauk, Director of AmeriCorps
                Tory Willson, Audit Resolution Coordinator

  Date:         August 5,2005

  Subject:      Response to OIG Draft Audit Report on Grants Awarded to the Wyoming
                Commission for National and Community Service



  Thank you for the opportunity to review the draft audit report on Corporation grants
  awarded to the Wyoming Commission for National and Community Service. We do not
  have specific comments at this time. We will respond to all findings and
  recommendations in our management decision when the final audit is issued, we have
  reviewed the findings in detail, and worked with the Commission to resolve the audit.




000
S A L
                         1201 New York Avenue, NW + Washington, DC 20525
                               202.606-5000 + www.nationalservice.org
                        Senior Corps + AmeriCorps + Learn and Serve America           The President's Call to Servm
